Amendment, either Petitioner in this case is cloaked with the fundamental
Sixth Amendment guarantee of access to counsel or such right was
abrogated by the Eleventh Circuit’s Crutchfield opinion.
Respectfully submitted,
f if MU&i

Michael Skillem, pro se
Reg. No. 44656-379
FPC Beaumont
P.O. Box 26010
Beaumont, Texas 77720

CERTIFICATE OF SERVICE
do herby certify that on the frjjm day of May, 2021,
I, Michael Skillem,
I placed the foregoing Motion for Writ of Mandamus, into an envelope with
first class postage paid, and deposited it with the United States Postal
Service, deposited this Motion with a commercial carrier for expedited
delivery. The mailing is addressed as follows:
1. Office of the Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543;
2. Circuit Judge Barbara Lagoa,
Office of the Clerk
United States Court of Appeals
For the Eleventh Circuit
56 Forysth Street
Atlanta, Georgia 30303
3. U. S. Attorney’s Office
AUSA Sara C. Sweeny, USA #119
400 W. Washington Street, Suite 3100
Orlando, FL 32802
15

In accordance with 28 USC Sec. 1746,1 declare under the penalty of perjury
that the foregoing “Certificate of Service” information is within my personal
knowledge and is true and correct.
Michael Skille

16

